2311 Douglas Street
Omaha, Nebraska 68102-1214
1-800-225-6964
(402)342-2831
Fax: (402) 342-4850

iHOCKLE

E-Mail Address:
contact@cocklelegalbriefs.com

'C^'VLegal Briefs
Est. 1923

Web Site
www.cocklelegalbriefs.com
No.
ISAAC M. NSEJJERE,
Petitioner,
v.
REUBEN SMITH and ADEN SMITH,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of December, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
ISAAC M. NSEJJERE
Pro se
8524 NE Bothell Way
Bothell, WA 98011
Telephone: (425) 583-6609
Email: Nsejjere@gmail.com

RECEIVED
DEC 27 2019

Subscribed and sworn to before me this 23rd day of December, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

OFFICE OF THE CLERK
■SUPREME COURT i.T
PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

^
Notary Public

QjaJUouj-'&
Affiant

38957

SERVICE LIST
Synthia Melton
Dimenson Law Group
130 Andover Park East, Suite 300
Tukwila, WA 98188
(206) 973-3500
Attorney for Respondents
Reuben Smith and Aden Smith

